              U.S. Department of Energy
              Office of Inspector General
              Office of Audit Services




Audit Report
The Department of Energy’s Spent
Nuclear Fuel Canisters and
Transportation Casks




DOE/IG-0608                                 June 2003
                               Department of Energy
                                   Washington, DC 20585
                                   June 20, 2003


MEMORANDUM FOR THE, SECRETARY

FROM:                      +2
                         Greg y   2- nedman
                         Inspector General

SUBJECT:                 INFORMATION: Audit Report on "The Department of
                         Energy's Spent Nuclear Fuel Canisters and Transportation
                         Casks"


BACKGROUND

The Department of Energy manages about 2,500 metric tons of spent nuclear fuel
generated from research and development, plutonium production, and the Naval Nuclear
Propulsion Program (Naval Reactors). Under current national policy, the Department is
to permanently dispose of its spent fuel in an underground repository, but an appropriate
repository is not expected to be available until at least 2010. Until then, the Department
plans to consolidate its spent fuel at interim storage sites deemed to have the most
appropriate skills, facilities, and technologies: the Hanford Site in Washington; the Idaho
National Engineering and Environmental Laboratory; and, the Savannah River Site in
South Carolina.

The Department's National Spent Nuclear Fuel Program (National Program) directs the
research and development of technologies for all Department-owned spent fuel. Working
with the Department's laboratories, the National Program is currently addressing four
spent fuel issue areas: efficient packaging and transportation; safe storage; accurate
characterization; and, compliance with safety and regulatory requirements. One of the
primary goals is to eliminate redundant activities by coordinating common needs among
the laboratories. The objective of this audit was to determine whether the National
Program has succeeded in achieving this goal.

RESULTS OF AUDIT

The audit disclosed redundancies, specifically with regard to the development of canisters
and transportation casks, at Department sites. We noted that Hanford, Naval Reactors,
and the National Program simultaneously developed three different spent nuclear fuel
canisters for interim storage and related tasks. In addition, the Office of Civilian
Radioactive Waste Management and the Naval Reactors program were independently
acquiring different casks in anticipation of transporting the Department's spent nuclear
fuel to the national repository.




                                @     Pnnted wlth soy ink on recycled paper
                                             2



We found that the National Program did not have programmatic authority over canister
and cask development for all Department-owned spent fuel. Further, the Department did
not have a comprehensive integration plan for cask development. These factors
undermined the National Program's goal of reducing programmatic redundancy.

While there were site-specific reasons for some of this activity, we concluded that
substantial cost reductions could be achieved through greater coordination and
consolidation of these activities. Had the Department eliminated redundant canister
development activities when the program began, a significant portion of the $13.8 million
spent on design might have been avoided. The opportunity still exists for the Department
to avoid potentially redundant development activities for transportation casks by
consolidating two development programs with an estimated combined cost of $9 million
to $24 million.

We recommended that the Assistant Secretary for Environmental Management and the
Director, Office of Civilian Radioactive Waste Management ensure that the National
Program has sufficient authority to fully integrate the Department's spent fuel technology
development activities, and that an analysis be conducted to determine whether standard
canisters should be used for operations at the Hanford Site. Also, we recommended that
the Director coordinate with the Deputy Administrator for Naval Reactors to determine
whether a single cask development effort would benefit the Department.

MANAGEMENT REACTION

Management generally concurred with the finding and two of the three recommendations.
However, the Director, Office of Civilian Radioactive Waste Management did not concur
with the recommendation to coordinate cask development efforts with Naval Reactors,
stating that there are significant differences between the two spent fuel types, and the
additional cost of using a cask suitable for Naval Reactors would exceed the potential
benefit from shared development activities.

We recognize that there are significant differences between the two spent nuclear fuel
types. However, in our judgment, management was not able to demonstrate that it had
performed sufficient technical analyses to support a final determination that additional
costs would exceed potential benefits.

Attachment

cc: Deputy Secretary
    Under Secretary for Energy, Science and Environment
    Assistant Secretary for Environmental Management
    Director, Office of Civilian Radioactive Waste Management
    Deputy Administrator for Naval Reactors
    Manager, Idaho Operations Office
THE DEPARTMENT OF ENERGY'S SPENT NUCLEAR FUEL
CANISTERS AND TRANSPORTATION CASKS

TABLE OF
CONTENTS



               Canisters and Transportation Casks

               Details of Finding.......................................................................   1

               Recommendations and Comments ...........................................                    4


               Appendices

               1 . Prior Audit Reports................................................................     7

               2. Objective, Scope, and Methodology .....................................                  8

               3. Management Comments .......................................................              9
CANISTERS AND TRANSPORTATION CASKS

Development Activities   Despite the existence of the National Spent Nuclear Fuel Program
                         (National Program), the Department of Energy (Department) had not
                         eliminated redundant spent nuclear fuel (SNF) technology development
                         activities at all of its sites. Specifically, the Hanford Site, the Naval
                         Nuclear Propulsion Program (Naval Reactors), and the National
                         Program simultaneously developed three separate canisters for use in
                         storing, transporting, and disposing of SNF. Additionally, the Office of
                         Civilian Radioactive Waste Management and Naval Reactors were
                         independently acquiring casks for transporting the Department's SNF to
                         the national repository.

                                                         Canisters

                         In 1996, as part of the National Program, the Idaho National
                         Engineering and Environmental Laboratory (INEEL) began developing
                         a "standard" SNF canister for storing, transporting, and disposing of
                         250 types of Department-owned SNF without additional repackaging.
                         As of October 2002, $3.6 million had been expended on this effort and
                         canister design was nearing completion. However, due in part to delays
                         in funding the development effort, no standard canisters other than
                         prototypes had been fabricated.

                         Although the National Program's intent was to design a standard
                         canister, two other sites undertook separate canister development
                         activities to meet their specific needs. In 1994, prior to the National
                         Program's design effort, Hanford began developing Multi-Canister
                         Overpacks (MCOs) to store N-reactor and single-pass reactor fuel.
                         Hanford's canister development activities were prompted by the 1994
                         Tri-Party Agreement between the Department, the State of Washington,
                         and the Environmental Protection Agency to address an imminent
                         environmental risk to the groundwater from the Hanford K Basins. One
                         of the Tri-Party Agreement's original milestones was to remove all
                         spent fuel from the K Basins by December 2002, and Hanford officials
                         believed that they were unlikely to achieve that milestone if they waited
                         for the National Program's canister design to be completed. However,
                         one of the limitations of the MCO is that it was not designed for use as
                         a disposal canister. Rather, it was only designed for interim on-site
                         storage. Although National Program officials asked Hanford to
                         postpone MCO development work in order to pursue the possibility of
                         using the standard canister, given the Tri-Party Agreement constraints,
                         Hanford's decision to proceed with its own canister was, from a site-
                         specific perspective, reasonable. However, had Hanford and the
                         National Program been able to better coordinate their efforts, some
                         portion of the $8.1 million spent to develop MCOs might have been
                         avoided.
Page 1                                                                        Details of Finding
         In 1996, Naval Reactors also began developing a canister. In this case,
         the canister was to store, transport, and dispose of SNF generated by the
         Naval Reactors program. Although Naval Reactors utilized design work
         previously completed in a joint effort among several Department offices,
         its overall canister development project, like Hanford's, was not fully
         integrated with the National Program. The lack of such integration
         raises the question whether Naval Reactors could have avoided some of
         the $2.1 million spent on its development efforts.

         Both the National Program's standard canister and the Naval Reactors'
         dual-purpose canister were designed for disposal in the national
         repository. However, because the Hanford-developed MCO was
         designed only for interim storage, and not for disposal, the National
         Program is currently performing tests to determine whether the MCO
         ultimately can be used for disposal. If not, the fuel may have to be
         repackaged to meet the national repository's disposal requirements. The
         Department's Office of Environmental Management and Office of
         Civilian Radioactive Waste Management stated that they were working
         closely to avoid any repackaging. However, given uncertainties in the
         licensing process, there is a possibility that some fuel may need to be
         repackaged regardless of whether it is in an MCO or standard canister.

         In total, the Department spent about $13.8 million on three different
         canister development programs. In some cases, actions taken by
         individual sites or programs to protect their mission and compliance
         status were, in our judgment, understandable. However, a more unified
         approach to canister development across the Department might have
         eliminated redundant efforts and unnecessary costs and resulted in a
         superior and more efficient canister.

                                  Transportation Casks

         As of 2001, the Department's Office of Civilian Radioactive Waste
         Management had sole responsibility for acquiring transportation casks
         for both commercial SNF and most of the Department's SNF. We noted,
         however, that a second Departmental program is currently developing a
         cask. Specifically, Naval Reactors has a separate program to design a
         transportation cask for its SNF. Existing transportation casks will not
         accommodate either the 15-foot standard canisters used for
         Environmental Management's SNF or Naval Reactors' 17.5-foot dual-
         purpose canisters. While similarities in these needs exist, the
         development efforts are being pursued separately. The Office of
         Civilian Radioactive Waste Management intends to issue a request for



Page 2                                                        Details of Finding
                        proposal to acquire a transportation cask in 2004, while Naval Reactors
                        expects to submit its cask design to the Nuclear Regulatory
                        Commission for approval at about the same time. Combined, the two
                        development efforts could cost as much as $24 million.

                        The Office of Civilian Radioactive Waste Management stated that it is
                        pursuing efforts to reconfigure and license commercially developed
                        transportation casks. If this effort is successful, design costs could be
                        reduced by as much as $15 million. However, Environmental
                        Management previously determined that development of a new cask
                        was necessary because no commercially viable cask could readily
                        accommodate the standard canister.

Program Authority and   Canister and cask development activities were not well coordinated
Integration Plan        because the National Program did not have programmatic authority for
                        all Department-owned SNF, and the Department lacked a
                        comprehensive integration plan. In 1997, officials with the National
                        Program recognized the opportunity to improve operating efficiencies
                        by eliminating redundant efforts being performed at Department sites.
                        However, the National Program had no authority to require the various
                        sites to consolidate their efforts. As a consequence, Hanford and Naval
                        Reactors selected and implemented their own technologies. Further,
                        development of the standard canister progressed according to a funding
                        level determined at a site, rather than as a national-level priority. Also,
                        although Naval Reactors' fuel is considered part of the SNF owned by
                        the Department, and some of the fuel is currently stored in the same
                        facility as Environmental Management fuel, the National Program has
                        no authority over the development of canisters and casks for Naval
                        Reactor hel.

                        The Department issued the Department-Owned Spent Nuclear Fuel
                        Technology Integration Plan in May 1996 to define technology needs
                        and to begin integrating development efforts. However, it did not use
                        the plan to coordinate and integrate SNF canister and cask
                        development. For example, the plan identified the need for a standard
                        canister, but it did not analyze opportunities for consolidating the
                        multiple programs that were developing canisters at the time. Further,
                        the plan did not address transportation cask development.

                        We noted that opportunities to avoid some costs on canisters and casks
                        may still exist. For example, according to the National Program, the
                        unit cost of the standard canister is less than the unit cost of the MCO.
                        Therefore, if Hanford is able to use the standard canister for the
                        remainder of its K Basin SNF, it may be able to reduce overall costs.

Page 3                                                                         Details of Finding
Cost Impact       However, we found that no formal cost analysis had been prepared.
                  As part of our audit, we identified about $13.8 million in design
                  costs for spent fuel canisters, some portion of which might have been
                  reduced or eliminated had the Department consolidated redundant
                  SNF activities. Additionally, the Department may still be able to
                  save some of the $9 million to $24 million it expects to spend
                  developing transportation casks.

                  It may also be feasible for the Department to realize savings by using
                  standard canisters, rather than MCOs, for the remainder of the
                  Hanford Site's SNF. The cost to fabricate an MCO is approximately
                  $80,200, compared to an estimate of about $20,000 per unit for the
                  standard canister. Departmental personnel informed us that these
                  savings might be partially offset by additional costs to migrate to the
                  standard canister. Such costs would include modifjmg the lifting
                  and handling equipment, fuel drying systems, etc. We were unable
                  to estimate the amount of these potential additional costs. We also
                  noted, however, that using more large standard canisters and fewer
                  MCOs could result in additional savings once the national repository
                  is opened. The Department plans to place MCOs with high-level
                  waste canisters in a waste package for disposal in the national
                  repository. The large standard canister can accommodate the same
                  amount of SNF as the MCO, but has a smaller diameter overall,
                  thereby allowing an additional canister of high-level waste to be
                  placed in each waste package. Thus, the large standard canister
                  would allow for more efficient use of repository space, require fewer
                  shipments, and allow reduced handling.

RECOMMENDATIONS   We recommend that the Assistant Secretary for Environmental
                  Management:

                      1. Coordinate with the Director, Office of Civilian Radioactive
                         Waste Management to ensure that the National Spent Nuclear
                         Fuel Program has sufficient authority to fully integrate the
                         Department's SNF technology development activities; and,

                     2. Conduct an analysis to determine whether using standard
                        canisters, rather than MCOs, for the remainder of the SNF at
                        Hanford is feasible and cost-effective.

                  We recommend that the Director, Office of Civilian Radioactive
                  Waste Management:




Page 4                                           Recommendations and Comments
                        3. Work with the Deputy Administrator for Naval Reactors to
                           determine whether a single cask development effort could
                           serve the Department's needs for transporting Department-
                           owned SNF.

MANAGEMENT         The Assistant Secretary for Environmental Management and the
REACT1
     0N            Director, Office of Civilian Radioactive Waste Management
                   generally concurred with the finding and recommendations 1 and 2.
                   Management stated that the finding was consistent with
                   Environmental Management's Top-to-BottomReview and that
                   corrective measures have been initiated to ensure better integration
                   of SNF technology development activities. However, the Director,
                   Office of Civilian Radioactive Waste Management did not concur
                   with recommendation 3, stating that there are significant differences
                   between SNF types, and the additional cost of using a cask suitable
                   for Naval Reactors would exceed the potential benefit from shared
                   development.

                   The Deputy Administrator for Naval Reactors also responded to the
                   draft report, and generally concurred with the finding and
                   recommendations. However, the Deputy Administrator did not agree
                   with the OIG's conclusion that a portion of the $13.8 million in
                   design costs might have been reduced or eliminated had the
                   Department consolidated its spent fuel activities, stating that the
                   design cost was not redundant. Rather, the design work was
                   necessary to develop and optimize the overall design to meet the
                   unique requirements of Naval Reactors SNF. Also, the unique
                   design saved Naval Reactors $30 million in procurement costs, and
                   could save several hundred millions of dollars more by reducing the
                   number of waste packages at the repository.

                   Management's verbatim response to the finding and
                   recommendations is included as Appendix 3.

AUDITOR COMMENTS   With regard to recommendation 3, we recognize that there are
                   significant differences between Naval Reactors SNF and other types
                   of SNF. However, management was unable to document that it had
                   performed a technical analysis to support a final determination that
                   additional costs would exceed potential benefits from a consolidated
                   cask development program. If, after such analysis, the Department
                   determines that technical needs are sufficiently diverse to justify
                   development of two different casks, then the Department's
                   integration efforts will have been successful to the maximum extent
                   practical.

Page 5                                           Recommendations and Comments
         Regarding Naval Reactors' assertion that its canister design effort will
         save the Department millions of dollars in procurement and
         emplacement costs, these savings are not mutually exclusive of
         integrating design efforts across the Department. During the audit,
         Environmental Management made similar statements regarding savings
         from its standard canister design efforts. Still, regardless of the savings
         achieved individually, had development efforts been better integrated,
         some redundant efforts might have been avoided, thereby realizing
         additional savings.




Page 6                                     Recommendations and Comments
Appendix 1

                                      PRIOR AUDIT REPORTS



         Audit of the US. Department of Energy's Management of Research and Development
         Integration (DOE/IG-0417, March 1998). The audit concluded that the Department of
         Energy (Department) did not have a system in place to ensure that research and
         development projects were fully integrated. This occurred because the Department had
         not clearly established organizational responsibility or authority for integrating research
         across programs. As a result, the Department may not be using research and development
         funds effectively to meet its mission.

         Completion of K Basins Milestones (DOE/IG-0552, April 2002). Persistent equipment
         problems and process complexities had kept the Department from meeting its schedule to
         move spent nuclear fuel from the K Basins to interim storage. Unless these issues can be
         effectively overcome, the Department will not meet any of the milestones established in
         the Tri-Party Agreement relating to the cleanup of the K Basins.




Page 7                                                                              Prior Audit Reports
Appendix 2
OBJECTIVE     Determine whether the National Spent Nuclear Fuel Program (National
              Program) has eliminated certain redundant technology development
              activities across the complex.

SCOPE         The audit was performed from April 16,2002, to December 5,2002, at
              the Idaho Operations Office and Bechtel BWXT Idaho, LLC in Idaho
              Falls, Idaho; the Richland Operations Office in Richland, Washington;
              and, the Naval Nuclear Propulsion Program (Naval Reactors) Office in
              Washington, D.C. The audit scope was limited to certain technology
              development activities for the storage, treatment, transportation, and
              disposal of Department-owned Spent Nuclear Fuel (SNF).

METHODOLOGY   To accomplish the audit objective, we:

                    Researched Federal and Departmental regulations regarding SNF
                    activities and technology development;

                    Reviewed findings from prior audit reports regarding SNF
                    activities and technology integration;

                    Assessed internal controls and performance measures established
                    under the Government Performance and Results Act of 1993;

                    Interviewed key Department personnel regarding technology
                    development activities and plans; and,

                    Analyzed the Department's planning, performance, and budgetary
                    data for technology development activities associated with the
                    treatment, storage, transportation, and disposal of Department-
                    owned SNF.

              The audit was performed in accordance with generally accepted
              Government auditing standards for performance audits and included tests
              of internal controls and compliance with laws and regulations to the
              extent necessary to satisfy the audit objective. Specifically, we tested
              controls with respect to the Department's planning process for waste
              management activities. Because our review was limited, it would not
              necessarily have disclosed all internal control deficiencies that may have
              existed at the time of our audit. We did not rely on information processed
              on automated data processing equipment to accomplish our audit
              objective.

              We held an exit conference with management from the Office of
              Environmental Management, Naval Reactors, and the Office of Civilian
              Radioactive Waste Management on April 28,2003.
Page 8                                           Objective, Scope and Methodology
        Appendix 3
DOE F 1325.8
  (8-891
EFG 1 0 7 - 9 0 1

United States G o v e r n m e n t                                                     Department of Enemy

memorandum
          DATE:     A p r i l 7 , 2003
    REPLY TO
    ATTN OF:        EM-21 (Andrew Griffith, 301-903-7120)
    SUBJECT.
                    Draft Report on ‘“l‘heDepartment of Energy’s Spent Nuclear Fucl Program”

             TO:    Frederick D. Doggett, Deputy Assistant Inspector General for Audit Services
                    Office of Inspector Gcncral

                    Thank you for the opportunity to review the Office of Inspector General draft
                    rcport, “The Department of Encrgy‘s Spent Nuclear Fuel Program.-‘ This
                    response represents the position of both the Office of Environmental
                    Management (EM) and the Office of Civilian Radioactive Waste Management
                    (RWh

                    Our offices agree that greater coordination is needed in all of the Dcpartment‘s
                    SNF disposition activities. Further, we acknowledge that improved integration
                    could have minimized redundancies and cost in some cases. This was a finding
                    of the EM Top-to-Bottom review.

                    To address this finding, a Corporate Project was established by EM and is being
                    supported by RW and other Departmental offices. This project, Integrated/Riisk
                    Driven Disposition of Spent Nuclear Fuel, was initiated in October 2002 to
                    develop a comprehensive, integrated strategy for the disposition of I>OE’sSNF.
                    The initial findings of the Corporate Project validate the need for greater
                    integration and more formal project management tools. The Corporate Pro-ject is
                    scheduled to complete its review and recommend a corporate stratcgy by the end
                    of this fiscal year.

                    In regard to the specific recommendations of thc draft report:

                       EM concurs with reconimendations 1 and 2. These are already sub-projects
                       of the EM Top-to-Bottom Corporate Project, I ntegratedRisk Driven
                       Disposition of Spent Nuclear Fuel.

                       RW non-concurs with Recommendation 3 and believes the significant
                       differences between the Naval Reactor SNF and other fuel require different
                       approaches.




        Page 9                                                                             Management Comments
Appendix 3 (continued)

                                                                                         2

     Attachincnt 1 provides the consolidated comments from E M and RW. the National SNF
     Program, and the Kichland and Idaho Operations Offices. Gcricral rcactioris are pro\ ided,
     as well as specific responses to sections of the draft report and to the drait
     recotn mendat ions.

                                                       2.-    & - -        _.   _-   -
                                                  i

                                               Dr. Margaret S . Y . C%u, Director
     Assistant Secretary for                   Of'iice oC Civilian Radioactive
      Environmental Management                  Waste Management


     Attachrncnt

     cc :
     K. Klein, RL
     W. Bergholz, ID




Page 10                                                                     Management Comments
 Appendix 3 (continued)
                               U. S . DEPARTMENT OF ENERGY
                                      Washington, DC 20585

                                       February 14,2003



          Mr. Fred Doggett
          Deputy Assistant Inspector General for Audit Services
          IG-32lFORS
          U.S. Department of Energy
          1000 Independence Ave. S.W.
          Washington, DC 20585

          Dear Mr. Doggett

          This is Naval Reactors' (NR) response to the DOE IG draft report "The Department of
          Energy's Spent Nuclear Fuel Program,'' dated January 24, 2003. NR generally concurs
          with the recommendations of the report. In fact, NR has been working with and
          exchanging information with the Office of Civilian Radioactive Waste Management on
          canister design. Like the canister design, NRs transportation cask will be designed with
          significant interaction with RW. As these designs develop, information is and will be
          shared to ensure that any redundant work is eliminated.

          While NR generally agrees with the information reported by the IG, NR would like to
          clarify one issue raised by the audit. With regard to the information on cost impact, the IG
          stated that about $13.8 million in design costs expended for spent fuel canister design
          might have been reduced or eliminated had the Department consolidated SNF activities.

          Unfortunately this is an inaccurate conclusion. The canister design cost was not
          redundant. This work was necessary to develop and optimize the overall design to meet
          the unique requirements of naval spent nuclear fuel. This work significantly reduced the
          required number of canisters, storage overpacks, and associated hardware. By
          increasing the length of the standard canister to meet naval spent nuclear fuel
          requirements, NR will save over $30 million in procurement costs for this hardware since
          it reduces the number of canisters needed by about 100. This savings does not include
          the several hundred million that will come from reducing the number of emplacements at
          the repository.

          NR appreciates the opportunity to comment on the COE-IG draft report.


                                                         Is1
                                                   T. H. Beckett
                                                   Naval Reactors



Page 11                                                                    Management Comments
                                                                              IG Report No.: DOEAG-0608

                                    CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
   audit would have been helphl to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name                                          Date

Telephone                                      Organization

When you have completed this form, you may telefax it to the Office of Inspector General at (202) 586-
0948, or you may mail it to:

                                     Office of Inspector General (IG-1)
                                           Department of Energy
                                          Washington, DC 20585

                                        ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer fnendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                            following address:


                  U.S. Department of Energy, Office of Inspector General, Home Page
                                       http://www.ig.doe.gov

                    Your comments would be appreciated and can be provided on the
                           Customer Response Form attached to the report.
